<html>
<title> - EPA'S IMPACT ON JOBS AND ENERGY AFFORDABILITY: UNDERSTANDING THE REAL COSTS AND BENEFITS OF ENVIRONMENTAL REGULATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                        EPA'S IMPACT ON JOBS AND
                  ENERGY AFFORDABILITY: UNDERSTANDING
                     THE REAL COSTS AND BENEFITS OF
                       ENVIRONMENTAL REGULATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 6, 2012

                               __________

                           Serial No. 112-88

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-723PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
















                            C O N T E N T S

                        Wednesday, June 6, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Brad Miller, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    14

                               Witnesses:

Dr. Michael Honeycutt, Chief Toxicologist, Texas Commission on 
  Environmental Quality
    Oral Statement...............................................    16
    Written Statement............................................    19

Mr. Eugene Trisko, Attorney at Law, on Behalf of the American 
  Coalition for Clean Coal Electricity
    Oral Statement...............................................    53
    Written Statement............................................    55

Mr. Tom Wolf, Executive Director, Energy Council, Illinois 
  Chamber of Commerce
    Oral Statement...............................................    75
    Written Statement............................................    77

Mr. David Hudgins, Director of Member and External Relations, Old 
  Dominion Electric Cooperative
    Oral Statement...............................................    81
    Written Statement............................................    83

Mr. Richard Trzupek, Principal Consultant, Trinity Consultants
    Oral Statement...............................................    88
    Written Statement............................................    90

Discussion                                                           98

             Appendix 1: Answers to Post-Hearing Questions

Dr. Michael Honeycutt, Chief Toxicologist, Texas Commission on 
  Environmental Quality..........................................   110
Mr. Eugene Trisko, Attorney at Law, on Behalf of the American 
  Coalition for Clean Coal Electricity...........................   119
Mr. Tom Wolf, Executive Director, Energy Council, Illinois 
  Chamber of Commerce............................................   126
Mr. David Hudgins, Director of Member and External Relations, Old 
  Dominion Electric Cooperative..................................   128
Mr. Richard Trzupek, Principal Consultant, Trinity Consultants...   133

             Appendix 2: Additional Material for the Record

An Economic Impact Analysis of EPA's Mercury and Air Toxics 
  Standards Rule.................................................   136

 
                          EPA'S IMPACT ON JOBS
                       AND ENERGY AFFORDABILITY:
                      UNDERSTANDING THE REAL COSTS
               AND BENEFITS OF ENVIRONMENTAL REGULATIONS

                              ----------                              


                        WEDNESDAY, JUNE 6, 2012

                  House of Representatives,
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:15 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Harris. The Subcommittee on Energy and Environment 
will come to order.
    Good afternoon. I am going to first apologize for a late 
start but we just got off the Floor with our first series of 
votes today, and I want to thank you all for your patience.
    Welcome to today's hearing entitled ``EPA's Impact on Jobs 
and Energy Affordability: Understanding the Real Costs and 
Benefits of Environmental Regulations.'' In front of you are 
packets containing the written testimony, biographies, and 
truth-in-testimony disclosure for today's panel of witnesses.
    I now recognize myself for five minutes for an opening 
statement.
    I want to welcome everyone to this afternoon's hearing on 
EPA's Impact on Jobs and Energy Affordability and to thank our 
witnesses for lending this Subcommittee their time and 
expertise.
    At the outset, I want to note that, unfortunately, due to a 
personal conflict, we should congratulate Cass Sunstein on the 
birth of a child. Administrator Sunstein from the White House 
Office of Information and Regulatory Affairs will not be 
testifying today. I certainly understand this explanation, 
although it was not communicated to the Subcommittee until late 
last week. I am concerned and somewhat disappointed in the lack 
of transparency and responsiveness demonstrated by the Office 
of Information and Regulatory Affairs when trying to organize 
this hearing.Staff reached out to identify a mutually agreeable 
hearing date over two months ago, and beginning on April 24, I 
sent formal invitations expressing flexibility regarding the 
Office's appearance that remain unanswered.
    I would be greatly disappointed if Administrator Sunstein 
refused to testify at some point before this Subcommittee, 
especially in light of the fact that his predecessors have 
testified before the Science Committee and its Subcommittee 
nearly a dozen times. An unwillingness to discuss recent 
regulatory developments would be especially disconcerting, 
given that Mr. Sunstein is responsible for overseeing the Open 
Government Initiative for the President's self-proclaimed 
``most transparent Administration in history.''
    Further, his office is charged with enforcing the Executive 
Order requiring that the regulatory system be ``based on the 
best available science'' as well as OMB standards on 
information quality, peer review, and data access. These are 
all issues directly relevant to the Subcommittee's jurisdiction 
and work, and I expect the Administrator to communicate to the 
Subcommittee by the end of this week when it would be 
convenient for him to testify in the coming months.
    While OIRA is not represented to discuss this process of 
integrating scientific and economics assessments into 
regulatory decision making, there are numerous Executive Orders 
and OMB and Agency guidelines for thorough regulatory analysis. 
Unfortunately, many of these guidelines have been willfully 
ignored in order to pursue an unprecedented regulatory agenda 
that is at odds with the President's rhetoric about an ``all-
of-the-above'' energy policy.
    Our witnesses today will describe a pattern of scientific 
and economic practices at EPA and OIRA that inflates health-
based regulatory benefits; overlooks actual economic, energy 
affordability, and jobs impacts; and fails to reflect 
uncertainty in communicating risks. All too often, major EPA 
regulations have been underpinned by secret science, hidden 
data, and black box models. As demonstrated in the hydraulic 
fracturing cases in Pavillion, Wyoming, Parker County, Texas, 
and Dimock, Pennsylvania, the Agency often appears more 
concerned with crucifying press releases and enforcement 
actions than meaningful peer review or scientific analysis.
    Additionally, EPA has failed to account for the health 
impacts of the higher energy prices and joblessness that these 
regulations guarantee. More and more of these regulations are 
almost exclusively justified on the basis of incidental ``co-
benefits'' from particulate matter reductions--raising the 
specter of double-counting--and private benefits on the 
assumption that all regulated entities are acting irrationally 
and against their economic self-interest and the--and that EPA 
knows what is best for their bottom line.
    The absurdity of these estimates is demonstrated in OIRA's 
2012 Draft Report to Congress, which indicates that, based on 
benefits estimates generated by EPA, the Agency's air quality 
regulations represent almost 80 percent of the benefits for all 
federal rules. Despite President Obama's Executive Order 
requiring that regulatory benefits justify costs, EPA recently 
announced its Carbon Pollution Standard for New Power Plants 
and claimed that the rule ``will result in negligible CO<INF>2</INF> 
emission changes, energy impacts, quantified benefits, costs, 
and economic impacts.'' As a matter of principle, regulatory 
benefits should justify their costs, and EPA's pursuit of this 
coal-killing regulation, despite its own admission that the 
rule has negligible benefits is mind boggling. As several of 
our witnesses will testify, this statement strains credulity, 
and the proposal is a de facto ban on new, clean, coal-
generated electricity in this country, as well as directly at 
odds with the President's ``all-of-the-above'' energy rhetoric.
    I want to thank the witnesses for appearing before the 
Subcommittee today, and I look forward to a constructive 
discussion.
    I yield back the balance of my time, and I recognize the 
Ranking Member, Mr. Miller, for five minutes for an opening 
statement.
    [The prepared statement of Mr. Harris follows:]

        Prepared Statement of Subcommittee Chairman Andy Harris

    I want to welcome everyone to this afternoon's hearing on EPA's 
Impact on Jobs and Energy Affordability, and thank our witnesses for 
lending this Subcommittee their time and expertise.
    At the outset, I want to note that, unfortunately, due to a 
personal conflict, Administrator Cass Sunstein from the White House 
Office of Information and Regulatory Affairs, or OIRA, will not be 
testifying today. I certainly understand this explanation, although it 
was not communicated to the Subcommittee until late last week. I am 
concerned and somewhat disappointed in the lack of transparency and 
responsiveness demonstrated by OIRA when trying to organize this 
hearing. Staff reached out to identify a mutually agreeable hearing 
date over two months ago, and beginning on April 24 I sent formal 
invitations expressing flexibility regarding OIRA's appearance that 
remain unanswered.
    I would be greatly disappointed if Administrator Sunstein refused 
to testify before this Subcommittee, especially in light of the fact 
that his predecessors have testified before the Science Committee and 
its Subcommittees nearly a dozen times. An unwillingness to discuss 
recent regulatory developments would be especially disconcerting, given 
that Mr. Sunstein is responsible for overseeing the Open Government 
Initiative for the President's self-proclaimed ``most transparent 
Administration in history.'' Further, his office is charged with 
enforcing the Executive Order requiring that the regulatory system be 
``based on the best available science'' as well as OMB standards on 
information quality, peer review, and data access. These are all issues 
directly relevant to the Subcommittee's jurisdiction and work, and I 
expect the Administrator to communicate to the Subcommittee by the end 
of this week when it would be convenient to testify in the coming 
months.
    While OIRA is not represented to discuss this process of 
integrating scientific and economics assessments into regulatory 
decision making, there are numerous Executive Orders and OMB and Agency 
guidelines for thorough regulatory analysis. Unfortunately, many of 
these guidelines have been willfully ignored in order to pursue an 
unprecedented regulatory agenda that is at odds with the President's 
rhetoric about an ``all-of-the-above'' energy policy.
    Our witnesses today will describe a pattern of scientific and 
economic practices at EPA and OIRA that inflates health-based 
regulatory benefits, overlooks actual economic, energy affordability, 
and jobs impacts, and fails to reflect uncertainty in communicating 
risks. All too often, major EPA regulations have been underpinned by 
secret science, hidden data, and black box models. As demonstrated in 
the hydraulic fracturing cases in Pavillion, Wyoming, Parker County, 
Texas, and Dimock, Pennsylvania, the Agency often appears more 
concerned with crucifying press releases and enforcement actions than 
meaningful peer review or scientific analysis.
    Additionally, EPA has failed to account for the health impacts of 
the higher energy prices and joblessness that these regulations 
guarantee. More and more of these regulations are almost exclusively 
justified on the basis of incidental ``co-benefits'' from particulate 
matter reductions (raising the specter of double counting) and private 
benefits on the assumption that all regulated entities are acting 
irrationally and against their economic self-interest (and that EPA 
knows what is best for their bottom line).
    The absurdity of these estimates is demonstrated in OIRA's 2012 
Draft Report to Congress, which indicates that, based upon benefits 
estimates generated by EPA, the Agency's air quality regulations 
represent almost 80 percent of the benefits for all federal rules. 
Despite President Obama's Executive Order requiring that regulatory 
benefits justify costs, EPA recently announced its Carbon Pollution 
Standard for New Power Plants and claimed that the rule ``will result 
in negligible CO<INF>2</INF> emission changes, energy impacts, 
quantified benefits, costs, and economic impacts.'' As a matter of 
principle, regulatory benefits should justify their costs, and EPA's 
pursuit of this coal-killing regulation, despite its own admission that 
the rule has negligible benefits, is mind boggling. As several of our 
witnesses will testify, this statement strains credulity, and the 
proposal is a de facto ban on new, cleaner coal-generated electricity 
in this country as well as directly at odds with the President's ``all-
of-the-above'' energy rhetoric.
    I want to thank the witnesses for appearing before the Subcommittee 
today and I look forward to a constructive discussion.
    I yield back my time.

    Mr. Miller. Thank you, Chairman Harris.
    I also want to begin by congratulating OIRA Administrator 
Cass Sunstein on the birth of a daughter last week. The human 
gestation period is somewhat predictable, and I suspect that 
Mr. Sunstein has known for some time that his wife would give 
birth about when she did. And that explains some of his 
reluctance to agree to a date to testify from among the options 
that the majority offered him. It is hard for me to imagine 
that he may not have mentioned that as the reason until last 
week, but it is hard for me to imagine he was keeping his 
wife's pregnancy secret. Pregnancy, particularly in the later 
stages, tends to be a fairly transparent event.
    But today's hearing is one he probably would not mind 
missing. This Committee certainly should inquire into the cost-
benefit analysis of environmental regulations. I have been 
concerned about economic cost-benefit analysis for a long time. 
Placing a dollar value on human life in deciding the economic 
benefit of environmental regulations raises serious questions, 
both practical and moral. Should we really value the lives of 
older Americans less than younger Americans, as at least one of 
our witnesses today apparently favors? And in a letter to 
Administrator Sunstein last fall, Chairman Harris asked, ``in 
spite of the fact that most mortality associated with 
particulate matter happens in the population over 65 years of 
age, EPA puts the same value on mortality for all ages. In your 
view, is this practice appropriate?''
    The Bush Administration briefly considered a senior death 
discount to justify weakening environmental regulations by 
valuing the lives of Americans older than 70 at 37 percent less 
than the values of the lives of other Americans. Their analysis 
reduced the economic benefit of one air pollution regulation 
from $77 billion to $8 billion. The Bush Administration 
recognized that they were swimming in deep waters, however, and 
dropped the idea of a senior death discount in economic cost-
benefit analysis. That seems like the right decision to me.
    But we know that as a practical matter if we forbid 
anything that could result in someone's death, then all 
economic activity will grind to a halt. But putting a dollar 
value on lives and valuing the lives of some more than others 
raises profound moral questions. I admit that deep 
philosophical discussions make me feel like I am back in 
college. I am in a dorm room late at night; three or four of us 
have had a few beers. We are sure that we are considering 
issues that have gone largely unexamined by previous 
generations and that our insights are wise beyond our years, 
but it is certainly better to talk about these questions out 
loud and let the American people in on the discussion. They 
might not agree that old folks' lives should be discounted. In 
fact, they might decide that Congress is really just more 
interested in pleasing special interests than in protecting the 
health of our mothers and fathers. And any supposed 
philosophical justification or economic justification for what 
Congress is doing is phony.
    If that was what this hearing was about or even a 
discussion of economic cost-benefit analysis that was a notch 
or two less abstract or philosophical, the majority would have 
invited EPA to provide a witness to explain how it would do 
cost-benefit analysis. So EPA, it does cost-benefit analysis of 
environmental regulations, not OIRA. Instead, this hearing is 
one more forum for big, specific industries to air their 
grievances about the EPA. We have heard again and again over 
the last year and a half that the EPA is filled with 
authoritarian zealots bent on destroying jobs, raising energy 
costs, and otherwise making us all eat granola, wear sandals, 
and ride bicycles. We have heard repeatedly that the EPA knows 
little of scientific methods and even less of economic analysis 
often from witnesses with few apparent credentials as 
scientists or economists.
    Given the disjointed nature of the list of particular 
grievances with the EPA aired today, the minority decided not 
to call a witness to today's hearing. If this Committee holds a 
hearing in the future for a serious, focused discussion of 
cost-benefit analysis, the communities affected by 
environmental exposures, and the practical and moral judgments 
that are behind the value of statistical life, we will 
certainly invite a witness.
    For today, I am submitting for the record letters and 
reports by groups and experts with the experience and knowledge 
to contribute to a thoughtful discussion of cost-benefit 
analysis.
    I yield back. And Mr. Chairman, I believe that you have 
been provided already--or your staff has been provided already 
a list of the letters--the documents that we submit for the 
record.
    [The prepared statement of Mr. Miller follows:]

     Prepared Statement of Subcommittee Ranking Member Brad Miller

    Thank you, Chairman Harris.
    I want to begin by congratulating OIRA Administrator Cass Sunstein 
on the birth of a daughter last week. The human gestation period is 
somewhat predictable, and I suspect that Mr. Sunstein has known for 
some time that his wife would give birth about when she did, and that 
explains some of his reluctance to agree to a date to testify from 
among the options that the majority offered.
    But today's hearing is one he probably doesn't mind missing.
    This Committee certainly should inquire into the cost-benefit 
analysis of environmental regulations. I've been concerned about 
economic cost-benefit analysis for a long time. Placing a dollar value 
on human life in deciding the economic benefit of environmental 
regulations raises serious questions, both practical and moral. Should 
we really value the lives of older Americans less than younger 
Americans, as at least one of our witnesses apparently favors? And in a 
letter to Administrator Sunstein last fall, Chairman Harris asked,``In 
spite of the fact that most mortality associated with [particulate 
matter] happens in the population over 65 years of age, EPA puts the 
same value on mortality for all ages. In you view, is this practice 
appropriate?''
    The Bush Administration briefly considered a ``senior death 
discount'' to justify weakening environmental regulation. By valuing 
the lives of Americans older than 70 at 37 percent less than the lives 
of other Americans, their analysis reduced the economic benefit of one 
air pollution regulation from $77 billion to $8 billion.
    The Bush Administration recognized that and dropped the idea of a 
``senior death discount'' in economic cost-benefit analysis. That still 
seems like the right decision to me.
    We know that as a practical matter, if we forbid anything that 
might result in someone's death, then all economic activity would grind 
to a halt. But putting a dollar value on lives, and valuing some lives 
more than others, raises profound moral questions.
    I admit that deep philosophic discussions make me feel like I'm 
back in college, I'm in a dorm room late at night, three or four of us 
have had a few beers, and we're sure that we're considering issues that 
have gone largely unexamined by previous generations and that our 
insights are wise beyond our years.
    But it's certainly better to talk about these questions out loud 
and let the American people in on the discussion. They might not agree 
that old folks' lives should be discounted. In fact, they might decide 
that Congress is really just more interested in pleasing special 
interests than in protecting the health of our mothers and fathers, and 
any supposed philosophical justification for what Congress is doing is 
phony.
    That's what the title of this hearing suggested we would discuss 
today.
    If that was what this hearing was about, or even a discussion of 
economic cost-benefit analysis that was a notch or two less abstract or 
philosophical, the majority would have invited the EPA to provide a 
witness to explain how they do cost-benefit analysis. Instead, this 
hearing is one more forum for specific big industries to air their 
grievances about the EPA. We've heard again and again that the EPA is 
filled with authoritarian zealots bent on destroying jobs, raising 
energy costs, and otherwise making us all eat granola, grow beards, and 
ride bicycles. We've heard repeatedly that the EPA really knows little 
of scientific methods and even less of economic analysis, often from 
witnesses with few apparent credentials as scientists or economists.
    Given the disjointed nature of the list of grievances with the EPA 
aired today, the minority decided not to call a witness. If this 
Subcommittee holds a future hearing for a serious, focused discussion 
of cost-benefit analysis, the communities affected by environmental 
exposures, and the practical and moral questions that are behind the 
Value of Statistical Life, we will certainly invite a witness. For 
today, I am submitting for the record letters and reports by groups and 
experts with the experience and knowledge to contribute to a thoughtful 
discusssion of cost-benefit analysis.
    I yield back.

    Chairman Harris. Yes. The Chair appreciates the request, 
but I have to reserve the right to object to inclusion of the 
items in the record at this time as our staff simply has not 
had the time to adequately review the contents of the documents 
for relevance and appropriateness. As you know, we received--or 
may not know--we received most of the materials at 11:30 last 
night. And, you know, Congress, we like to think is a 24/7 
body, but 11:30 last night is a little late. We received 
additional materials at 10 o'clock this morning. You know that 
we have been in session since then, and they total 18 documents 
and 140 pages. And, you know, we read fast, but we don't read 
that fast.
    So it is quite possible that most, if not all, of these 
items will not present a problem but we simply need additional 
time for review.
    The Chair would remind and encourage all Members wishing to 
submit extensive materials into the record to share those as 
far in advance as possible to allow for reasonable review times 
so that we can, you know, get them in the record under 
unanimous consent, but I am afraid that won't be possible at 
this time.
    Mr. Miller. And, Mr. Chairman, given that, first of all, I 
would like to have a chance to discuss these issues if you 
determine on any basis that these should not be part of the 
record. I do not recall any time that the minority has 
submitted documents for the record and had that request denied, 
but I would reserve the right to object to any documents that 
the majority wishes to enter into the record.
    Chairman Harris. Sure. And if we send something over at 
11:30 last night, I think you--it would be totally, totally 
appropriate for you to--especially 140 pages at 11:30 at night, 
it would be totally appropriate for that to be a fact.
    Let me just--since you mentioned a letter that I had 
written to Mr. Sunstein, I look forward to discussing the 
issues about statistical lives, maybe with Administrator 
Sunstein, maybe with Ezekiel Emanuel also, because the whole 
purpose of the letter was that, in fact, Mr. Sunstein has said 
that we should use statistical life here and has repeatedly 
called for conducting regulatory analysis. I actually asked, is 
it appropriate in an EPA study? So I agree with you that that 
is something we should discuss in a very open forum.
    Now, if there are Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time, I would like to introduce three of our 
witnesses, and I will yield to Mrs. Biggert to introduce Mr. 
Wolf and Mr. Trzupek. The first witness is Dr. Michael 
Honeycutt, the Chief Toxicologist with the Texas Commission on 
Environmental Quality. Welcome back. He has been employed by 
the TCEQ since 1996 and has managed a division of 14 
toxicologists since 2003. His responsibilities include 
overseeing health effects, reviews of air permit applications, 
overseeing the review of the results of ambient air monitoring 
projects, and overseeing the reviews of human health risk 
assessments for hazardous waste sites.
    Our next witness is Mr. Eugene Trisko, Attorney-at-Law, who 
is testifying on behalf of the American Coalition for Clean 
Coal Electricity. For 10 years, Mr. Trisko served as an expert 
witness on water utility cost of capital before the Public 
Utility Commissions of Maryland, Virginia, and West Virginia. 
In 2000 and again in 2007, Mr. Trisko was appointed by the U.S. 
Department of State to represent U.S. industry and labor in 
bilateral negotiations with Canada on air pollution control.
    Our fourth witness today will be Mr. David Hudgins, the 
Director of Member and External Relations at the Old Dominion 
Electric Cooperative. Old Dominion is a generation and 
transmission cooperative that supplies the electricity needs of 
12-member electric distribution cooperatives that serve over 
500,000 customers in Virginia, Delaware, and Maryland, and I 
might add, the 1st Congressional District of Maryland as well. 
In his position, Mr. Hudgins works with these member 
cooperatives and local, regional, and state governmental 
agencies to identify and attract businesses to locate in the 
predominantly rural areas served by these cooperatives.
    I now yield to Mrs. Biggert to introduce our third witness, 
Mr. Tom Wolf; and our fifth and final witness, Mr. Richard 
Trzupek.
    Mrs. Biggert. Thank you, Mr. Chairman. It is my pleasure to 
be here this afternoon to introduce both of these witnesses 
from my home State of Illinois.
    Mr. Wolf is the Executive Director of the Illinois Chamber 
of Commerce's Energy Council, where he advocates for the 
development of across-the-board energy sources. Prior to 
joining the Chamber, Mr. Wolf spent more than 20 years as a 
Public Affairs Executive and holds a bachelor's degree from the 
University of Wisconsin in Madison.
    Mr. Trzupek has worked in the environmental industry for 
three decades, starting as a stat tester and now acting as an 
Environmental Consultant to many businesses. He is the author 
of Air Quality Permitting and Compliance Manual and Regulators 
Gone Wild. I haven't read that one yet--but how the EPA is 
ruining America's industry--and holds a bachelor's degree from 
Loyola University in Chicago.
    So I thank both of you for joining us and providing your 
insights into these troubling EPA regulations. I look forward 
to hearing your testimony.
    Yield back, Mr. Chairman.
    Chairman Harris. Thank you very much, Mrs. Biggert.
    As our witnesses should know, spoken testimony is limited 
to five minutes, each after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize Dr. Michael Honeycutt to present his 
testimony.

              STATEMENT OF DR. MICHAEL HONEYCUTT,

                      CHIEF TOXICOLOGIST,

           TEXAS COMMISSION ON ENVIRONMENTAL QUALITY

    Mr. Honeycutt. Good afternoon, Mr. Chairman and Members of 
the Committee. I am Dr. Michael Honeycutt, Director of the 
Toxicology Division at the TCEQ. I have submitted more detailed 
written comments on the science behind EPA's cost-benefit 
analysis, but I will touch on a couple of highlights right now.
     The EPA's cost-benefit analysis is detailed in the 
Regulatory Impact Analysis for each significant rule. A number 
of Executive Orders address the requirement for and the goals 
of cost-benefit analysis. Under the Reagan Administration, the 
benefits for a proposed rule had to outweigh the cost for that 
rule. However, the Clinton Administration in this--the language 
was changed substantially such that the benefits must simply 
justify the cost. That position is maintained in the current 
administration, along with consideration for additional factors 
such as equity, fairness, promotion of economic growth, and job 
creation.
    The vast majority of the benefits that EPA calculates come 
from the so-called ``co-benefits'' of reducing fine particulate 
matter, or PM, even on the rules that do not directly target 
PM. Those estimated benefits rely heavily on two key 
assumptions: number one, that PM causes mortality; and that, 
number two, that there is no safe level of exposure to PM. The 
most recent analysis of the costs and benefits of the Clean Air 
Act concludes that for every $1 society spends complying with 
these regulations, $30 in benefits is obtained. However, more 
objective assessments of the human health benefits from cleaner 
air do not necessarily support the conclusion that the benefits 
outweigh costs.
    Keeping that in mind, I want to briefly talk about the 
ecological epidemiology studies that EPA is using as the 
primary basis for the PM benefits. These studies are 
exploratory studies designed to look for correlations. They are 
supposed to be followed up by more rigorous epidemiology and 
clinical studies to determine whether the correlations are 
real. These studies are not supposed to be used quantitatively, 
and they are certainly not rigorous enough to set environmental 
policy. The assumption is that breathing PM made individuals 
die sooner than they would have otherwise.
    This type of study is notorious for unresolved issues. Were 
the individuals actually outside? Did they take their 
medications that day? Do they have other risk factors with a 
stronger influence on life expectancy like smoking, cholesterol 
levels or obesity? There are a whole host of common-sense 
questions that go unanswered in these studies. Simply put, 
these studies cannot tell us if PM caused these deaths or even 
if these people died prematurely, much less tell us what PM 
might have caused their death.
    Since 2009, the EPA has assumed that there is a linear 
relationship between PM exposure and mortality. And you can see 
on the overhead here, data from a typical study showing that 
the relationship between mortality risk and PM levels is not 
obvious. That is not a straight line. I am sorry. In fact, one 
would be hard pressed to detect a linear association. 
Nevertheless, statisticians can run data through elegant models 
to try to find statistically significant correlations, but the 
output of those models is only as good as the input and, as any 
scientist will tell you, statistical correlation alone does not 
imply causation.
    EPA also assumes that any exposure to PM, no matter how 
low, directly causes premature death. This method extrapolates 
risk far below the NAAQS, extending to background levels. This 
approach is not entirely accurate, nor is it conclusively 
supported by the data. In fact, ecological epidemiology studies 
are not designed to detect thresholds. Furthermore, this 
assumption does not take into account the fact that the body 
can handle small doses of PM, and indeed, this concept is the 
cornerstone of toxicology.
    When the scientific data addressing the association between 
PM and premature death is examined in detail, it becomes 
obvious that these statistical associations may have very 
little biological significance. The increased chance of dying 
that is reportedly due to PM exposure is extremely small. This 
chance is communicated by what is known as relative risk, with 
a relative risk of 1.0 being not significant. Scientific as 
well as legal guidance indicates that relative risks below 2.0 
should not be considered to support this relationship. The 
relative risks for PM and premature death reported to date are 
considerably lower than 2.0.
    For the two studies EPA uses, one relative risk is 1.06 and 
the other is 1.16. Some of the studies show no relationship, 
and in fact, some studies suggest that PM can make you live 
longer.
    These issues illustrate EPA's modus operandi. The concept 
of ``weight of evidence'' is misused to discount contradictory 
data. They use worst-case assumptions, fail to put risks into 
proper perspective, and fail to disclose how uncertain the data 
are. Our agency believes that regulations are an integral and 
necessary tool to protect public health and our natural 
resources. Likewise, our expectation is that those regulations 
be based on sound science and justifiable and that they realize 
true benefits.
    Thank you for this opportunity.
    [The prepared statement of Mr. Honeycutt follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Harris. Thank you very much.
    I now recognize Mr. Eugene Trisko for five minutes to 
present his testimony.

                STATEMENT OF MR. EUGENE TRISKO,

               ATTORNEY AT LAW, ON BEHALF OF THE

         AMERICAN COALITION FOR CLEAN COAL ELECTRICITY

    Mr. Trisko. Thank you, Mr. Chairman, Ranking Member Miller.
    I am Eugene Trisko. I am here on behalf of the American 
Coalition for Clean Coal Electricity. And I have conducted, for 
the better part of the last decade, an annual study as a 
consultant to ACCCE entitled, ``Energy Cost Impacts on American 
Families.'' This study really started soon after the Kyoto 
Protocol when a question arose, what are American families 
spending on energy? Because there were a variety of estimates 
at that time when the Kyoto Protocol was being considered in 
the United States, a number of studies that suggested impacts 
on the order of $500 or $1,000 per household or more.
    So we wanted to try to get a handle on a baseline--what are 
Americans spending now for energy? So having done this study 
pretty much on an annual basis since 2000, we have created, if 
you will, a baseline that has allowed us to track changes in 
energy costs. The report analyzes consumer energy costs since 
the year 2001 for all U.S. households and examines the pattern 
of energy expenditures among four income levels and for senior 
and minority families. It relies on historical energy 
consumption survey data and current energy price forecasts from 
the Department of Energy's Energy Information Administration. 
By way of a footnote, EIA is just now beginning to release the 
results of its 2009 survey of residential energy consumption 
and it has not yet gotten to the point where it is releasing 
consumption or expenditure data. When we get that information, 
we will update the study accordingly. But based upon the 
preliminary results from the 2009 survey, it appears that the 
consumption data, if anything, may be somewhat higher than they 
were in the previous study in 2005.
    Slightly more than one half of U.S. households have average 
pretax annual incomes below $50,000. Mr. Chairman, this country 
is divided precisely in half at an annual household income 
pretax of $50,000. Our median family income today is $49,455. 
And that has not changed in principle in the 10 years in which 
I have been conducting this study, with no adjustment for 
inflation. In 2001, families with gross annual incomes below 
$50,000 spent an average of 12 percent of their average after-
tax income of $21,800 on residential and transportation 
energy--gasoline. In 2012, these households are projected to 
spend 21 percent of their average after-tax income of $22,390 
on energy.
    Family incomes have not kept pace with the rising cost of 
energy. The U.S. Census Bureau reports that since 2000, real 
inflation-adjusted median household income has declined by six 
percent and is seven percent below the median household income 
peak of $53,000 that occurred in the year 1999. Higher gasoline 
prices account for nearly 4/5ths of the increased cost of 
energy for consumers since 2001. In nominal dollars, average 
U.S. household expenditures for gasoline will grow by 136 
percent from 2001 to 2012, based on EIA gasoline price 
projections for 2012.
    Electricity has maintained relatively lower annual average 
price increases compared to residential natural gas and 
gasoline. Electricity prices have increased by 51 percent in 
nominal dollars since 1990, well below the 72 percent rate of 
inflation in the consumer price index. The nominal prices of 
residential natural gas and gasoline have nearly doubled and 
tripled, respectively, over this period.
    Virtually all of the residential electricity price 
increases over the past two decades have occurred since 2000. 
These increases are due in part to additional capital, 
operating, and maintenance costs associated with meeting clean 
air and other environmental standards.
    Lower-income families, including millions of fixed-income 
seniors, are more vulnerable to energy costs than higher-income 
families, because energy represents a larger portion of their 
household budgets. Energy is consuming 1/5th or more of the 
household incomes of lower- and middle-income families, 
reducing the amount of income that can be spent on food, 
housing, health care, and other necessities.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Trisko follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Harris. Thank you very much.
    I now recognize Mr. Wolf to present his testimony.

                   STATEMENT OF MR. TOM WOLF,

              EXECUTIVE DIRECTOR, ENERGY COUNCIL,

                  ILLINOIS CHAMBER OF COMMERCE

    Mr. Wolf. Thank you, Mr. Chairman.
    My name is Tom Wolf. I am the Executive Director of the 
Energy Council at the Illinois Chamber of Commerce. The Council 
is made up of companies that generate, transmit, transport 
energy or supply the energy marketplace. Thank you for the 
opportunity to give a little bigger-picture perspective on some 
of the regulations being proposed on future greenhouse gas 
emission sources.
    When it comes to the energy regulatory oversight, 
businesses are looking for a few general themes. Some of them 
include predictability, what can and should they plan for; a 
sweet spot where interests--including environmental interests--
are protected and commerce can flourish; benchmarks that are 
based on science and engineering, not wishful thinking; and 
diversity, allowing everyone a shot at success so we don't rely 
too much on one form of energy.
    We believe the new rulemaking on greenhouse gas emissions 
for new sources proposed by the U.S. EPA falls short of these 
goals. Here are a couple of reasons why.
    The proposed rulemaking sets a limit which most natural gas 
generators can accommodate with today's technology but that 
coal generation cannot. It seems a bit strange that this magic 
limit saves the planet and just so happens to allow natural gas 
but not coal generation. We understand there is a provision in 
the U.S. EPA regulations for coal companies to average the 
greenhouse gas emissions over 30 years, theoretically allowing 
them to build a new plant, retrofit it with sequestration 
technology when it becomes available--if and when it becomes 
available and move forward--that path for new coal could move 
forward. But that path seems to run through the installation of 
carbon capture and sequestration, a technology that is still 
under development and too expensive for use today. We hope that 
changes but it is unclear that it will.
    Given that, what company will be able to get financing for 
a new plant that is built on the hope that a new technology 
will be available and affordable at some point in the future? 
We don't believe investors would or could take that risk. Let's 
take a moment to remember how much cleaner coal generation has 
become in the past three decades. The Prairie State generation 
plant in Marissa, Illinois, outside St. Louis on the Illinois 
side of the Mississippi River produces 50 percent less 
regulated emissions and 15 percent less greenhouse gas 
emissions using the best available control technology, a great 
step forward.
    However, we believe if these proposed regulations take 
hold, the leap coal producers are asked to make in greenhouse 
gas emissions will be a roadblock to innovation, not an 
incentive. The leap being asked for could result in companies 
abandoning coal research and moving to other forms of energy, 
leaving us more vulnerable with fewer supply choices.
    We believe if these regulations are enacted, the cleaner 
coal technologies will be invented somewhere else, or they 
won't be invented at all because other countries that rely on 
coal are making little to no effort to minimize greenhouse gas 
emissions. We are a leader in cleaner coal technologies today 
and could be going forward.
    I hesitate to try and quantify the exact costs of the 
proposed rulemaking that I am going through. If I have learned 
one thing in my four years in this position, it is that the 
future is really hard to predict. Who could have predicted the 
natural gas--the new natural gas finds that we found in our 
country that could turn us into a natural gas exporter versus 
an importing one we thought we would be? Who could have 
predicted that crude oil from North Dakota, which was 7,500 
barrels per day in 2006, is now over 500,000 barrels a day? Who 
could have predicted that wind turbines would be 30 percent 
more efficient than they were three years ago or solar 
equipment costs would plummet the way they have?
    But unless there is a leap in coal generation technology 
that is unforeseen at this time, we believe the rules proposed 
by the U.S. EPA and new sources will effectively shut down the 
future of new coal generation and the jobs, economic 
development, and opportunity that would come with it.
    In closing, I want to talk about the Prairie State. I took 
a tour of Prairie State, talked the lead environmental engineer 
there and asked him what he felt about working at that plant 
and how he felt about working on the environmental controls. 
And he said, I am a kid in a candy store. I reap potential 
environmental controls in this plant and I am so proud of 
working here. We need to make regulations that inspire him to 
roll up his sleeves and find the next innovation that makes 
coal even cleaner instead of rulemaking that I believe makes 
him want to throw up his hands and go, are you kidding me? We 
can't do it.
    So we suggest taking a long, deep breath, take a hard look 
at these new regulations and change them to allow new coal 
plants to be built, incentivized in a way that creates a market 
for the technological advances that will make coal cleaner and 
cleaner and a viable option for United States and global 
electricity users.
    Thank you for this opportunity, Mr. Chairman.
    [The prepared statement of Mr. Wolf follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Harris. Thank you very much.
    I now recognize Mr. David Hudgins for five minutes to 
present his testimony.

                STATEMENT OF MR. DAVID HUDGINS,

           DIRECTOR OF MEMBER AND EXTERNAL RELATIONS,

               OLD DOMINION ELECTRIC COOPERATIVE

    Mr. Hudgins. Thank you, Mr. Chairman, Members of the 
Committee.
    Good afternoon. My name is David Hudgins. I am the Director 
of Member and External Relations at Old Dominion Electric 
Cooperative. ODEC is a generation and transmission cooperative 
headquartered in Glen Allen, Virginia, which is outside of 
Richmond. We provide electric power to 11 member-distribution 
cooperatives in Virginia, Maryland, and Delaware. Among our 
portfolio of fossil fuel generation, we have a 50 percent 
ownership in an 850 megawatt coal-fired plant in Halifax 
County, Virginia, and two simple cycle combustion turbines in 
Virginia and 50 percent of another one in Maryland.
    As an owner of existing fossil fuel generation, and more 
importantly, as we continue our interest and efforts to develop 
a coal-fired base facility, Cypress Creek Power Station, ODEC's 
decisions on future generation will be directly and negatively 
impacted by the adoption of the New Source Performance 
Standards for carbon dioxide, and I very much appreciate the 
opportunity to speak today on the EPA proposal or, as I learned 
over the weekend, the Employment Prevention Agency--i.e., this 
plant will employ 3,000 construction workers for four years, 
225 permanent jobs at the end of the construction, and that is 
not including the ripple effect of hundreds of millions of 
dollars that are going to ripple through the economy. So it has 
a material impact on the entire region about the rules.
    But today, I am here to state officially that ODEC has 
significant concerns related to the proposal. This rule, the 
NSPS, is at its core flawed. EPA fails to provide stated 
benefits for this rule. The proposed rule's standard is set 
without regard to fuel type, with only certain natural gas-
fired units capable of meeting the proposed limit without 
control equipment. Given that there is currently no 
commercially available, demonstrated technology capable of 
removing the required CO<INF>2</INF>, namely carbon capture and 
storage from large coal power plants, this standard mandates 
fuel choice in lieu of technologies. The NSPS was never 
intended to be used to ``redefine'' a source or dictate use of 
one fuel over another. NSPS must be technologically driven and 
not enacted to drive an overall national mitigation goal.
    Additionally, the EPA, in their efforts to justify this 
standard, relied on two major assumptions. First, EPA believes 
that implementation of a currently unachievable CO<INF>2</INF> 
standard for coal will drive commercial development of the 
emerging carbon capture technology to ensure future compliance. 
Second, the proposed rule presumes supply of natural gas will 
be both affordable and readily available to fuel the 
significant increase of base load generation in the coming 
decades. ODEC believes both of these assumptions are erroneous.
    With regard to carbon capture technology, EPA states in the 
release of the proposed standard, ``today's proposal does not 
interfere with construction of new coal-fired capacity.'' EPA 
is justifying the standard by providing a 30-year averaging and 
assuming that full-scale carbon capture technology would be 
commercially viable within 10 years given current and projected 
government testing and demonstration. This averaging 
requirement alone will preclude any new coal plants from being 
built. No company will take the risk to invest billions of 
dollars into a power plant in the hopes that carbon capture 
technology will be developed. Additionally, financial lending 
institutions will not lend money to construct a plant without a 
viable technology to demonstrate compliance. This is a $5 
billion investment on behalf of the cooperatives to provide 
1,500 megawatts.
    There are some demonstration projects involving enhanced 
oil recovery; however, this Administration's Interagency Task 
Force on Carbon Capture noted, ``only when the financial, 
economic, technological, legal, and institutional barriers are 
addressed will carbon capture be a viable mitigation option.'' 
Finding suitable storage areas, developing pipeline 
infrastructure, and developing large-scale capture technology, 
in addition to the legal and liability issues, are 
significant--if not insurmountable--hurdles to overcome.
    ODEC has been and continues to be a member of the Southeast 
Regional Carbon Sequestration Partnership. We recognize the 
need for these partnerships to facilitate exploration and 
expansion of this Nation's technological capabilities. As a 
Virginia cooperative, coal has been an abundant, consistent, 
and economical source of fuel for development of base load 
electric generation for many decades. While all of us have seen 
recent prices of natural gas at all-time lows, EPA's assumption 
that prices will remain low is extremely short-sighted.
    Historically, the U.S. Government has consistently failed 
to accurately predict future natural gas prices, and world 
market implications on natural gas pricing are disturbing. 
Electrical affordability from natural gas generation is 
significantly driven by the fuel price. EPA's proposed standard 
will effectively eliminate ODEC's choice for affordable base 
load electric power.
    ODEC recognizes that solutions to this country's power 
needs in the future will take resources and innovation. 
However, this proposed mandate will not drive those solutions. 
Because of the significant impact it will have on the electric 
generation industry as a whole, and more importantly, on ODEC's 
ability to construct new base load generation that will be 
affordable for all of our members--owners, ODEC urges the 
Committee to fully and objectively examine the source material 
and this proposed rule. Also, we urge the Committee to 
encourage the EPA to withdraw this proposed rule.
    This concludes my testimony and thank you again for the 
opportunity to speak on this fundamental issue of powering the 
United States economy into the future. Thank you.
    [The prepared statement of Mr. Hudgins follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Harris. Thank you very much.
    I now recognize our final witness, Mr. Richard Trzupek, for 
five minutes to present his testimony.

               STATEMENT OF MR. RICHARD TRZUPEK,

                     PRINCIPAL CONSULTANT,

                      TRINITY CONSULTANTS

    Mr. Trzupek. Thank you, Mr. Chairman and Ranking Member 
Miller, for the opportunity to testify here today.
    I am Rich Trzupek, a chemist and environmental consultant 
currently employed as Principal Consultant with Trinity 
Consultants, Inc. I work in the trenches, as it were, for the 
small and midsized companies that do not have their own 
environmental staff.
    You have my written testimony, so I would like to use this 
time to highlight a few points.
    First, the perception in the regulative community that the 
EPA is overly aggressive and overly intrusive is real and in my 
opinion justified. When former Region 6 Administrator Dr. Al 
Armendariz--sorry about that--Armendariz made his famous 
crucifixion speech, it came as no surprise to those who work on 
the industrial side. From an industrial point of view, he 
honestly expressed--albeit in far-too-colorful language--the 
way that most high-ranking EPA officials view enforcement 
actions. My experience has been that, at the federal level, 
intimidation is often as important as compliance.
    Second, many parts of the regulatory structure and the 
federal permit systems are needlessly cumbersome and complex. 
Some say they do what they can to provide help in 
streamlining--TCEQ is a great example--but there is little they 
can do about the parts of their programs which are subject to 
U.S. EPA oversight and approval. The complexity the regulatory 
structure creates more and more opportunities for 
noncompliance, which has nothing to do with exceeding emission 
limits, but rather strictly about paperwork and procedures.
    The combination of aggressive enforcement, regulatory 
complexity, and a clunky federal permit system does lead to 
adverse economic consequences. I have seen many cases in my 
career where the decision not to build a facility in the United 
States or the decision not to expand an existing facility was 
heavily influenced by the regulatory environment. This is not 
to say that environmental regulations were the only factor in 
these decisions but they were important factors.
    Third, I believe it is time for Congress to review the way 
the U.S. EPA is allowed to continually redefine its mission, 
particularly with respect to the Clean Air Act. Under the Clean 
Air Act, the U.S. EPA is allowed to continually redefine what 
constitutes clean air by issuing a new ambient air quality 
standards. By continually moving the goalposts farther and 
farther as the air has gotten remarkably cleaner and cleaner, 
the Agency thus justifies continuing with less and less actual 
environmental or human health returns. The United States now 
has some of the cleanest air in the world, and I would 
respectfully suggest that it is time we acknowledge that fact 
and that the Clean Air Act reflects that fact.
    Fourth, the economic justifications that the U.S. EPA uses 
when promulgating new regulations are, in my opinion, seriously 
flawed. In my opinion, U.S. EPA both grossly overestimates the 
economic benefits of regulations and ignores many economic, 
societal, and health consequences on the other side of the 
ledger. In a way, I think it is unfortunate that we call the 
metric value a statistical life because it tends to imply maybe 
I can plop down $9 million and buy a person. What it really is 
is the net economic productivity of the average person, how 
much money he makes, how much he impacts the economy. When you 
say it is a value of a life it is going to be insulting no 
matter the number. I personally think I am worth more than $9 
million over the course of my life. And there is no way that 
metric should be used or should be called what it is as though 
it was a real value of a life. It is a value of what a person 
does and earns in his life.
    You will note that all of the above comments are not 
related to the U.S. EPA under this or any other administration. 
These comments would have applied four years ago, eight years 
ago, 12 years ago, et cetera. The only real difference over 
time is that we can apply the word ``more'' each and every 
year. Regulations get more complex, the EPA gets more 
aggressive, economic justifications are more unbelievable, et 
cetera.
    There is one thing that is unique to the EPA under the 
current Administration and that is what I refer to as the 
regulatory tsunami aimed squarely at the use of coal and power 
industrial sectors. Through a combination of greenhouse gas 
limitations--which previous witnesses have talked about--new 
permitting requirements, new ambient air quality standards, and 
new hazardous air pollution rules, the Agency has made it 
virtually impossible to build the new, modern coal-fired 
generation in the United States that would replace our aging 
fleet.
    The EPA has thus effectively decided that more and more of 
the base load power generation capacity the American depends on 
will be natural gas-fired. In the long term, I strongly suspect 
this will lead to substantial increases in the cost of 
electricity and in more wildly fluctuating power prices.
    Thank you again for the opportunity to testify, and please 
feel free to call on me again in the future if I can be of 
assistance to the Committee.
    [The prepared statement of Mr. Trzupek follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Harris. Thank you very much.
    I thank the witnesses for being available for questioning 
today, reminding Members that Committee rules limit questioning 
to five minutes.
    The Chair at this point will open the round of questioning 
and I recognize myself for five minutes.
    Mr. Trzupek, let me just follow up on that regulatory 
tsunami. I am sure you are aware, as everyone in the public is, 
you know, we have this 2,700-page Affordable Care Act bill and 
a whole bunch of rules and regulations have to come from it. 
Are you aware that there are twice as many regulations from the 
EPA as there are from Health and Human Services before OIRA 
right now, despite the fact that HHS has to implement a 2,700-
page health bill that involves 17 percent of the U.S. economy, 
twice as many? Would that surprise you?
    Mr. Trzupek. That frightens me.
    Chairman Harris. It wouldn't surprise. I didn't think it 
would.
    With regards to this statistical life, that is kind of 
related to the quality adjusted life, which is, if I recall, 
Ezekiel Emanuel, the advisor to the President, is the one that 
introduced that concept in regards to how to ration medical 
care as we go to look to decrease the costs of Medicare in the 
future. Am I correct? I mean it is the same concept that in 
fact older lives somehow don't get the same amount of resources 
as younger lives?
    Mr. Trzupek. Yeah, that is correct.
    Chairman Harris. Right, that was Ezekiel Emanuel's--the 
whole point of his pretty famous paper.
    Now, Dr. Honeycutt, let me ask you some questions. I am 
going to ask you--can we show the slides here? Because I am 
going to show this--these are some of your slides here that you 
didn't present, but they are in the written testimony. Now, the 
first one suggests--because, you know, in science you like to 
think we kind of, you know, seek the truth. Apparently, the 
truth before pre-2009 appeared to be that maybe four percent of 
all deaths was due to PM<INF>2</INF>, but the truth somehow 
changed post-2009 and all of a sudden four times as many 
deaths. One of those sciences is wrong, right? I mean we have 
to assume that no cataclysmic event occurred in 2009 except 
maybe the beginning of a new administration that would have 
quadrupled the number of deaths attributable to PM<INF>2</INF>, 
is that--that is kind of correct?
    Dr. Honeycutt. Yes.
    Chairman Harris. Right? Okay. Now, let's go to the next 
slide, which I think is one that you showed. When I took my 
master's degree at the School of Public Health, the first thing 
they taught us in the statistics course is before you do any 
statistics you actually look at the data. Now, I look at this 
data and if you took that line that is vertical which really is 
nothing, that is just, you know, that .15, and you looked at 
that data and I asked someone to draw the best line--to imagine 
that a line describes this data or even a curve describes this 
data, one would look at it and go, well, you really can't 
because with those outliers there on the right you could say, 
well, I could draw a line going downward with those outliers on 
the left. Well, maybe it is straight across.
    So the first validation of any statistical analysis is look 
at it and say should you subject this statistical analysis? I 
got to you tell you, I look at this, I say I am not sure I 
would. Let's go to the next slide.
    And that is true, right? Is that--that is the way you are 
supposed to deal with statistics?
    Dr. Honeycutt. You are absolutely correct.
    Chairman Harris. This is the assumption of causality. Now, 
this is the most worrisome because what you are suggesting--and 
I wish, you know, Cass Sunstein were here and God bless him on 
the birth of a daughter. I have two daughters. You know, he is 
going to have his hands full and three other--three boys. He is 
going to have his hands full for a while. But the research was 
an association.
    Dr. Honeycutt. Absolutely.
    Chairman Harris. Which they teach you in epidemiology 
should never be attributed to causality until you do actual 
studies that prove causality, is that correct?
    Dr. Honeycutt. Yes, sir.
    Chairman Harris. Okay. Now, this is the assumption of 
causality, and even if you assume causality, this is where you 
say most of the studies--because that line above the number one 
assumes that there is no effect--most of those studies fall on 
that line and only one study if I look at it doesn't have an 
estimate--a range of estimate--of accuracy of estimate that 
actually doesn't touch the line one.
    Dr. Honeycutt. Yes, sir. It is very----
    Chairman Harris. So the assumption looking at that data 
would be there is actually no evidence that there is an 
increase in relative risk.
    Dr. Honeycutt. There is very little.
    Chairman Harris. In fact, the studies you showed indicate 
there is a 1.06. I imagine that study actually included 1 as 
part of the range.
    Dr. Honeycutt. Actually, it didn't. It was very close to 1.
    Chairman Harris. Well, you said there were two studies, 
1.06 and 1.16, but I don't see two that don't touch the line of 
1, maybe 1.16 that did it. That is what I thought.
    Next slide.
    This one is very interesting, because it assumes that if 
you want to live a longer life in Dallas and in Houston, you 
better start breathing some PM<INF>2</INF>----
    Dr. Honeycutt. Yes, sir.
    Chairman Harris [continuing]. Is that right?
    Dr. Honeycutt. Yes, sir.
    Chairman Harris. Because using the same association and the 
same causality information to say that actually your risk is 
decreased in Dallas and Houston and Birmingham and I know Las 
Vegas crosses the 1. And actually, there are only very few 
cities where there is even a slight increase. You know, maybe 
in Phoenix and Milwaukee it might not be hazardous, but that 
could outweigh Dallas and Houston.
    As far as you know, does the EPA--did they change the 
requirements for Dallas and Houston based on this scientific 
data?
    Dr. Honeycutt. No, sir. We have the same requirements 
everyone else does.
    Chairman Harris. You do? Even though the evidence is that 
in Texas it appears to be protective?
    Dr. Honeycutt. Yes, sir.
    Chairman Harris. Okay. That is kind of what I thought. 
Anyway, thank you very much. We will get a second round, be 
sure to get some more in. And I now recognize the Ranking 
Member, Mr. Miller, for five minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    That set of questions make it all the more remarkable that 
no one from EPA was invited to appear at this hearing because 
these analyses are done by EPA; they are not done by OIRA. It 
certainly would have been useful to have had someone here from 
EPA to ask some of those very particular questions that the 
Chairman was just asking.
    The reason that I set out verbatim in my opening statement 
the Chairman's question to Cass Sunstein last fall is I did not 
want to summarize the position he was taking since it was, as 
they say in ``Jeopardy,'' in the form of a question. But let me 
put this innocent--although it pretty clearly is implicit in 
the question--for purposes of this question, if your position 
is that EPA should value life not by life but by years, and 
that if an environmental exposure lessens life by a percentage 
and therefore it is more years for younger people, then if that 
is your analysis, then you are saying, yes, younger people's 
lives should count for more than older people's lives.
    Given that assumption, Mr. Honeycutt, could you answer this 
question? In spite of the fact of that most mortality 
associated with particulate matter happens in the population 
over 65 years of age, EPA puts the same value on the mortality 
for all ages. In your view, is this practice appropriate?
    Dr. Honeycutt. No, sir.
    Mr. Miller. That is not appropriate?
    Dr. Honeycutt. No, sir.
    Mr. Miller. Okay. You do believe that younger lives should 
count for more than older lives? There should be a senior 
discount?
    Dr. Honeycutt. Actually, the lives should be the same. It 
is the life years that needs to be different because actually 
the rules impact----
    Mr. Miller. Right.
    Dr. Honeycutt [continuing]. People mainly 80 and over.
    Mr. Miller. So you were----
    Dr. Honeycutt. So it adds months to their lives. So a 25-
year-old, if he lives past 25 years old--if this were infant 
mortality, you would be correct. You would use a whole life. 
But we are talking adding lives to people who are over 80 or 
adding years--months to the lives of people who are over 80.
    Mr. Miller. Okay. So you are, again, the gist out of the 
analysis that you get there is that the life of a younger 
person should count for more than a life of an older person?
    Dr. Honeycutt. Well, they should count equally because a 
25-year-old--his value of a statistical life--it should be the 
same no matter what. But an 80-year-old who dies four months 
sooner than they would have, they have only lost that four 
months.
    Mr. Miller. All right. Thank you, Dr. Honeycutt.
    Dr. Honeycutt, there is a pretty clearly established legal 
concept that there can be many causes, but if they act in 
concert they are all--that each one is a cause. Do you dispute 
that in any way? I mean, if someone is obese and a smoker and 
is exposed to particulate matter or any other kind of 
environmental exposure and that combination had not existed 
they would have survived, then each one of those is a cause.
    Dr. Honeycutt. Each one can contribute. The question is how 
much do they contribute? And I think the answer is those other 
factors contribute a lot more than PM does if PM does at all.
    Mr. Miller. Okay. I understand the whole idea of double 
counting is that the--that two different rules may accomplish 
the same purpose and if you count it the same for both, you are 
double counting. But it is certainly possible to have discrete 
benefits from two different rules, and it is possible to have a 
cumulative effect from two different rules. Your slides suggest 
that there has been double counting but there is absolutely 
no--you cite no authority for that at all. What is your 
authority for the EPA double counting the benefits of air 
pollution controls, for instance?
    Dr. Honeycutt. Well, I mean it is taken directly from EPA 
analysis because when you reduce--if a rule reduces PM by a 
microgram per cubic meter and another one does, it is reducing 
the same microgram per cubic meter.
    Mr. Miller. Why is it not 2 micrograms per cubic meter?
    Dr. Honeycutt. Because it looks at what----
    Mr. Miller. How do you know it is the same microgram?
    Dr. Honeycutt. Because you are measuring--if you are 
measuring at a monitor--see, these aren't looking at sources; 
they are looking at monitors in the environment, monitors at a 
city. So if it is reduced at a monitor somewhere, it doesn't 
really matter where it came from. It is reduced at the monitor. 
That is the different between an ambient standard and a point 
force standard.
    Mr. Miller. Right. But you have offered no authority. Is 
there any authority--is there any published paper that shows 
that they are actually double counting rather than there being 
discrete benefit or cumulative benefit?
    Dr. Honeycutt. I am not sure about a published paper on 
that, but you can actually just look at EPA's data and pull 
that information out. It is there. I would be happy to show you 
that.
    Dr. Miller. Okay. Well, even better would be to have an EPA 
witness come and have that person ask those questions.
    My time has almost expired and I will yield back the last 
15 seconds.
    Chairman Harris. Thank you. I think you are actually 15 in 
the red, but we will give you--remember, we are going to have 
another five minutes. And gosh, I kind of wish that the 
minority had invited the EPA. I would love to hear their 
explanation.
    Mrs. Biggert is recognized, the gentlelady from Illinois, 
for five minutes.
    Mrs. Biggert. And thank you, Mr. Chairman.
    Mr. Wolf, you recently testified at a public hearing in 
Chicago on EPA's proposed carbon pollution standard. Do you 
think that based upon recent EPA behavior, the Agency is likely 
to incorporate and respond to your concerns in the final 
standards?
    Mr. Wolf. I hate to predict the future of what government 
agencies do. I certainly hope that they will take a look at 
this. The industry--you know, I represent a lot of different 
voices in the industry in Illinois--wind, solar, coal, nuclear, 
crude oil, utilities--it is not like they are against every 
regulation in the book. They would like regulations that they 
believe allow a sweet spot for that environmental protection 
and a successful business model. And I am hoping the U.S. EPA 
looks at this specific one and has a path for coal that really 
is a path for coal and not a roadblock.
    Mrs. Biggert. Okay. Then, do you think that the recent EPA 
regulatory activity is consistent with the all-of-the-above 
energy policy?
    Mr. Wolf. I think this proposal is not consistent with 
that. I think this proposal does preclude coal--new coal 
generation from happening. The coal producers and actually some 
of the other producers of energy I have talked to about these 
regulations, people aren't even in the coal business, some of 
the wind people I talk to look at this and say, yeah, they are 
not going to be able to build with this. It is just too much of 
a leap. Where they say incentivization for maybe permitting 
incentivizations, a renewed permit is X percent cleaner for 
greenhouse gas gives that incentive as an idea to get better 
and better and cleaner and cleaner over time. If you just say 
here is this big bar you have to reach and they can't reach it, 
they aren't even going to try to get there.
    Mrs. Biggert. I know that in Illinois there was 
sequestration that was talked about for a long time in southern 
Illinois which has not happened, but it seems like there has 
been some breakthrough on the greenhouse gases for coal. I 
thought that they really had--in some of the plants had been 
able to remove that from there.
    Mr. Wolf. Well, on the sequestration side there is actually 
a pilot project going on in Decatur right now----
    Mrs. Biggert. Yeah.
    Mr. Wolf [continuing]. Where they are sequestering a 
million metric tons over three years and we are hopeful that 
pilot project will prove successful both technologically and 
environmentally and economically. But again we are not sure.
    Mrs. Biggert. So it is moving forward?
    Mr. Wolf. It is moving forward but there are a lot of 
``ifs'' in that scenario and to say--to put out regulation that 
says every if is going to work out; therefore, let's do it this 
way is grasping. And then, you know, there is--I think the coal 
industry has shown over the past three decades that it can get 
better. And that is in their hands and saying we are done. This 
is it. This is the best we can do. Consistently, they are 
showing they can get cleaner and cleaner in their energy and 
production and we should give them that chance to continue 
that.
    Mrs. Biggert. Okay. Then, Mr. Trzupek, what are the 
cumulative effects of these various EPA rules on the bottom 
line for small businesses?
    Mr. Trzupek. For small businesses they have a very marked 
effect on the bottom line. In the small entrepreneurial 
businesses that I deal with, the person who is trying to manage 
the EPA program is usually the driving force in that business; 
he is the entrepreneur. And the more time he has to spend doing 
things that really don't have environmental benefit, they are 
just about paperwork and procedures, the less time he is being 
productive, the less time he has to devote to growing his 
business.
    Mrs. Biggert. And do you think that the EPA's carbon 
pollution standard that will effectively ban coal generation 
will impact the manufacturers and small businesses?
    Mr. Trzupek. I think in the long term because coal has been 
for years the great stabilizer in energy prices and natural 
gas, as I think Mr. Hudgins pointed out, historically 
fluctuates a lot and if you don't have certainty on energy 
prices, that is definitely going to affect my clientele.
    Mrs. Biggert. Okay.
    And Mr. Trisko, what impact will the recently proposed and 
finalized rules on the power sector have on coalmining and 
coalminers?
    Mr. Trisko. The--thank you, Mr. Wolf.
    Mrs. Biggert. Mr. Trisko, yeah.
    Mr. Trisko. Yes. Thank you. The most recent economic impact 
analysis of the impact of the EPA Mercury and Air Toxics 
Standards Rule sponsored by ACCCE is prepared by National 
Economic Research Associates. I could briefly summarize those 
job results because your hearing is focused in part on the 
impact of these rules on jobs. Now, this is not broken down for 
coalmining jobs. Coalmining jobs obviously are kind of first in 
line. They are the first to be lost in this process followed by 
losses in the utility sector, the railroad sector, and so 
forth. There are, of course, some offsetting job gains in 
construction--construction of pollution controls and the like.
    The NERA study of the MATS rule--and this is prepared, 
dated March 21, 2012, so it was prepared after the final rule 
was promulgated and it is focused only on the MATS rule and 
compares that rule relative to two baselines; first, a CAIR 
baseline, the Clean Air Interstate Rule, which is in effect 
today pending the court's stay of CSAPR; and then second, a 
baseline of the CSAPR rule assuming that that is implemented at 
some point. And in sum, the estimate of the net job impacts for 
the two rules are a net loss of 215,000 permanent full-time 
equivalent jobs for the MATS rule plus CSAPR relative to a CAIR 
baseline. So it is a net loss, 215,000 permanent jobs.
    Mrs. Biggert. Okay.
    Mr. Trisko. When you compare the MATS rule relative to the 
CSAPR transport rule, the estimate is for a net loss of 180,000 
permanent full-time jobs. ACCCE would like permission to submit 
this study for the record following the conclusion of this 
hearing because all of the assumptions underlying the findings 
I have just summarized are contained therein.
    Mrs. Biggert. Mr. Chairman, I would ask that the study be 
submitted for the record.
    Chairman Harris. Without objection, so ordered.
    [The information may be found in Appendix 2.]
    Chairman Harris. Thank you. The gentlelady yields back her 
time.
    We have enough time for a second round of questioning if--
and I will begin a second round of five minutes of questions.
    If we can show one of the--show the slides. You can put 
them up--and this slide right here. I finally found that other 
box that didn't intersect with zero because it is so close to 
the line of 1 you can't see it. The two studies with the lines 
are the Laden study from 2006, the Pope study from 2002 which 
actually forms the basis of $1.8 trillion of the $2 trillion 
benefit claimed by EPA, the economic benefit. Now, my reading 
of that slide shows that both those overlap the relative risk 
of 1. Is that true?
    Dr. Honeycutt. Well, sir, there----
    Chairman Harris. Or are they just really, really darn 
close?
    Dr. Honeycutt. They are very close.
    Chairman Harris. Okay. And just to put it into perspective, 
is it true that smoking increases--the relative risk of smoking 
is about 2.8 times?
    Dr. Honeycutt. Yes, sir.
    Chairman Harris. So you are looking at maybe two, three 
percent increase versus a 280 percent increase--180 percent 
increase----
    Dr. Honeycutt. Yes, sir.
    Chairman Harris [continuing]. In those? Okay. And that is 
1.8 trillion of the 2 trillion. That is how really you get to 
30 to 1----
    Dr. Honeycutt. Sure.
    Chairman Harris. Do you know if meta-analysis has been 
conducted on those to actually increase the power of it to see 
if when you put all of those studies together they intersect--
they overlap 1?
    Dr. Honeycutt. Yes, sir. A meta-analysis has been done. The 
problem is one of those studies has over a million people in 
it.
    Chairman Harris. I got you. So it weighs--you are right. It 
overweighs in the meta-analysis. I understand that.
    Look, I am sorry that the EPA isn't here to testify, but to 
be honest with you, we have been waiting since September. We 
were promised by--personally, Gina McCarthy promised me to send 
that data that justifies that from those two studies and the 
data. And Mr. Holden appeared and Mr. Smith asked him--he 
promised he would send it. We have been waiting for, you know, 
seven or eight months. I understand the EPA is busy writing 
regulations and doing other things but they should have some 
time to respond to Congress when we ask those kind of 
questions.
    Now, Mr. Hudgins, Cypress Creek Power Station, that base 
facility you are talking about that would be--would help 
provide electricity into my district for Choptank Electric. You 
know, you stated that your decisions on the base load facility 
it will be ``directly and negatively impacted by the new carbon 
pollution standard for power plants despite the Agency's claim 
that there is zero cost associated with the rule.'' We are 
going to have Lisa Jackson--if she appears--testifying in this 
room at the end of the month and she has claimed that this rule 
won't kill coal due to flexibilities included and the ability 
to incorporate carbon capture and sequestration in 10 years. My 
assumption from your testimony is that you are not--you don't 
really agree that that is necessarily true. Obviously, you 
probably would have gone ahead and built the facility.
    Mr. Hudgins. Mr. Chairman, at the end of the day, this 
whole process of billions of dollars is driven by the financial 
institutions that we deal with, Wall Street. And one thing that 
bankers do not want is uncertainty.
    Chairman Harris. Right. I should say it is actually the 
financiers who really don't trust that that is a stable, 
financially sound decision to----
    Mr. Hudgins. Take a $5 billion risk----
    Chairman Harris. Right, on the fact that, for instance, 
carbon--and we know because we have had testimony in front of 
this Committee that carbon capture and sequestration, the 
demonstration projects actually aren't--haven't been done. They 
are just not scalable. They are really not financially feasible 
and yet we still hear that that is true.
    The prediction of energy costs--because I guess Lisa 
Jackson bases that on a--you know, a $250 million BTU cost of 
natural gas but the EIA estimate--and, you know, you have to 
trust the EIA at some point--are you aware of what their 
estimate was for this year's cost of natural gas two years ago?
    Mr. Hudgins. I am not.
    Chairman Harris. It is 4.50. It is actually 2.50. The 
government is only off by a factor of 80 percent in that 
estimate. Do you have any reason to believe that the government 
will be able to predict or that Ms. Jackson is able to predict 
the cost of natural gas? And is that, in fact, part of the 
basis for the decision to say that, you know, coal really might 
be--the price stability of coal might be the most dependable 
way to go if these rules weren't in place?
    Mr. Hudgins. Mr. Chairman, sometimes we go to use common 
sense and every time you have a----
    Chairman Harris. This is Washington, DC. I beg to differ.
    Mr. Hudgins. I understand, but at the end of the day, it is 
about monopoly and if we are forced as a utility into the gas 
market as to be the sole supplier of gas--I mean of electricity 
from gas, then what is going to happen to a price in any 
monopoly? And we can point to our history when the monopoly 
occurs, prices rise.
    Chairman Harris. Sure.
    Mr. Hudgins. And what we were fearful of three, four years 
ago, gas was at almost $14 MCF.
    Chairman Harris. You are absolutely right, and we have a 
long history of the stability of coal prices.
    Mr. Trisko, can you add to that?
    Mr. Trisko. Yes, Dr. Harris. Given your penchant for 
statistical analysis, I think you would be interested to find 
that the EIA's analysis of the NYMEX future natural gas 
contract that appears on the short-term energy outlook Web page 
for DOE contains a tab called probability analysis. And if you 
click that tab on probability, you will find the 95 percent 
confidence intervals for the NYMEX December 2013 natural gas 
contract. It gives the reference case projection and then the 
95 percent confidence intervals around that projection. Now, 
that is a contract price that is 18 months hence and EIA's 95 
percent confidence interval is between a range of slightly less 
than $2 per million BTU and slightly less than $8 per million 
BTU.
    Chairman Harris. Only a four-fold range.
    Mr. Trisko. Yeah.
    Chairman Harris. Easy to predict I guess. Listen, thank you 
very much and I defer--I recognize the Ranking Member, Mr. 
Miller, for a second round of questions.
    Mr. Miller. Thank you, Mr. Chairman. Among the 17 documents 
that I earlier asked to be included in the record and do not 
yet have a ruling on, almost all of them are letters from 
groups that have an opinion, have a point of view on this 
topic. I have never known an organization that has a point of 
view on a topic that is before a Congressional Committee being 
denied the right to have their views included in the record.
    Some clippings, articles, and various publications, and 
only a couple of at all detailed technical kinds of documents, 
one of which is Summary of Expert Opinions on the Existence of 
a Threshold and the Concentration Response Function for PM-
related Mortality, technical support document. This is 
published by the EPA, was compiled by the EPA. It includes 
several participants, some of which I have heard of like the 
American Heart Association, some of which I have not heard of 
but the list of authors of their papers is long, and their 
credentials appear impressive and in every case they have an 
equally long and equally impressive list of peer reviewers. It 
is pretty stunning to me to think that the majority staff does 
not know about this, did not know about this document well 
before last night in preparing for this hearing because this 
seems to be a pretty basic document.
    Dr. Honeycutt, are you familiar with this document?
    Dr. Honeycutt. I am familiar with most of the statements in 
it.
    Mr. Miller. Well, are you familiar with the list of 
scientists who participated in one way or another either as 
authors or as--well, some list authors and peer reviews; some 
list experts, but those--this list of scientists who 
participated in preparation of this document?
    Dr. Honeycutt. Yes, sir.
    Mr. Miller. You are familiar with that list? Okay. Well, 
you have criticized the EPA, including in your testimony today, 
as being secretive, not telling you what their analysis is. 
This seems pretty open.
    Dr. Honeycutt. Well, actually, the data underlying their 
analysis is not available.
    Mr. Miller. Was that data provided to this list of--it 
looks like probably a couple hundred scientists?
    Dr. Honeycutt. No, it wasn't. That data is held by a couple 
of universities and only the university professors have access 
to the data.
    Mr. Miller. I am sorry. The data is not provided to peer 
reviewers?
    Dr. Honeycutt. That is correct. Only the analysis of the 
data is.
    Mr. Miller. The people who--the scientists who agree to be 
peer reviewers are not seeing the data upon which they are----
    Dr. Honeycutt. You are absolutely correct.
    Mr. Miller. I am not correct. I am not saying it. I am 
asking you.
    Dr. Honeycutt. Your statement is correct.
    Mr. Miller. Okay. But that is what you are saying. All 
right. And so you disagree with the statement by the EPA that 
studies demonstrated an association between premature mortality 
and fine particulate pollution at the lowest levels measured in 
the relevant studies levels that are significantly below the 
NAAQS for fine particles. These studies have not observed a 
level at which premature mortality effects do not occur. You 
say that is not supported by data or by scientific analysis?
    Dr. Honeycutt. Oh, no, sir. That is absolutely true. But 
there are other studies that don't show that association and 
there are other studies that show that PM is--if you can 
interpret it this way--healthful. And I think that is the 
problem. EPA doesn't present that data. They only present the 
positive data. They don't present the negative data.
    Mr. Miller. Okay. One of the advantages of having peer 
reviewers is presumably that they know the literature of the 
field. Do you believe this--what appears to me in my lay 
opinion to be an impressive set of experts--do you think they 
do not know the data in this area or the analysis, the 
literature in this area?
    Dr. Honeycutt. Well, actually a number of those people, 
that is their data, so I would expect them to advocate the use 
of their own data over another researcher's data. But----
    Mr. Miller. But the other studies that you refer to----
    Dr. Honeycutt. Um-hum.
    Mr. Miller [continuing]. And I--you are saying that what 
they are referring to is just some studies and then there are 
contradictory studies. So when they say that the studies 
demonstrate an association between premature mortality and fine 
particulate--fine particle pollution at the lowest levels 
measured in the relevant studies that what they are saying is 
our studies, but there are other studies that contradict that?
    Dr. Honeycutt. That is true.
    Mr. Miller. And that these couple hundred scientists did 
not know about those studies or did they know about those 
studies?
    Dr. Honeycutt. They may have. I am not sure what they did 
or didn't know, but those studies are older studies. Those 
studies--the exposures occurred during the '80s and '90s. A lot 
of the newer data shows different effects or doesn't show the 
effect.
    Mr. Miller. Okay. My time is expired.
    Chairman Harris. Thank you very much.
    And seeing no other Members here, I want to thank the 
witnesses for their valuable testimony, the Members for their 
questions. The Members of the Committee may have additional 
questions for you and we will ask you to respond to those in 
writing if we do. The record will remain open for two weeks for 
additional comments from Members.
    Again, I want to thank you very much for your patience in a 
late start to the hearing because of our voting schedule. The 
witnesses are excused. Thank you all for coming.
    The hearing is now adjourned.
    [Whereupon, at 3:27 p.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               Appendix 2

                              ----------                              


                   Additional Material for the Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 An Economic Impact Analysis of EPA's Mercury and Air Toxics Standards 
                                  Rule


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                    <all>


</pre></body></html>
